App. 1

IN THE SUPREME COURT
OF THE STATE OF NEVADA
JEFFREY KIRSCH,
Appellant,
vs.
REDWOOD RECOVERY
SERVICES, LLC; AND
ELEVENHOME LIMITED,
Respondents.

No. 73576

ORDER OF AFFIRMANCE
(Filed Nov. 15, 2019)
This is a pro se appeal from a district court final
judgment and order granting an injunction following
a bench trial.1 Eighth Judicial District Court, Clark
County; Mark R. Denton, Judge.
We are not persuaded that the district court com­
mitted reversible error in entering the challenged orders.
First, we agree with the district court’s determination
that appellant had sufficient minimum contacts with
Nevada such that he was subject to specific personal
jurisdiction in this state. See Catholic Diocese of Green
Bay, Inc. v. John Doe 119, 131 Nev. 246, 249-50, 349
P.3d 518, 520 (2015) (explaining Nevada’s test for
determining minimum contacts, which includes the
extent to which the plaintiff’s cause of action arises
from the defendant’s contacts with Nevada). Most no­
tably, the district court found that appellant created a
1 Pursuant to NRAP 34(f)(3), we have determined that oral
argument is not warranted in this appeal.

App. 2
Nevada-registered LLC (Rock Bay, LLC), physically
went to a Las Vegas branch of U.S. Bank to set up a
bank account for Rock Bay, and then orchestrated
the deposit of millions of dollars into that account in
order to hide that money from respondents. Having
reviewed the record, we conclude that substantial evi­
dence supports the district court’s findings, and because
respondents’ claims arise directly from the aforemen­
tioned conduct,2 we agree that appellant’s contacts
with Nevada were sufficient to subject him to specific
personal jurisdiction in Nevada. Id. at 249, 349 P.3d
at 520 (“When reviewing a district court’s exercise of
jurisdiction, we review legal issues de novo but defer
to the district court’s findings of fact if they are sup­
ported by substantial evidence.”).
Nor are we persuaded that the district court abused
its discretion in prohibiting appellant from introducing
evidence at trial as a discovery sanction. See Young v.
Johnny Riheiro Bldg, Inc., 106 Nev. 88, 92, 787 P.2d
777, 779 (1990) (reviewing the imposition of discovery
sanctions for an abuse of discretion).3 In particular, the
record demonstrates that appellant (1) refused to dis­
close any witnesses or documents in compliance with
NRCP 16.1, (2) repeatedly refused to appear for his dep­
osition, (3) refused to respond to requests for production,
2 In this primary respect, Fulbright & Jaworski LLP v. Eighth
Judicial Dist. Court, 131 Nev. 30, 342 P.3d 997 (2015), is distin­
guishable from this case.
3 While the district court did not impose case-concluding sanc­
tions, we note that the court nevertheless adequately considered
the Young factors such that case-concluding sanctions would have
been justified.

App. 3
and (4) refused to respond to interrogatories. Given
that appellant did not produce any evidence during
discovery, the district court was well within its discre­
tion to prohibit appellant from relying on that evidence
at trial.4
Finally, we conclude that the district court did
not clearly err in determining appellant waived his
statute-of-limitations affirmative defense. See Wells
Fargo Bank, N.A. v. Radecki, 134 Nev. 619, 621, 426
P.3d 593, 596 (2018) (upholding a district court’s fac­
tual findings following a bench trial unless they are
clearly erroneous). The district court’s written judg­
ment found that appellant waived the defense by not
asserting it until he joined in the other defendants’
post-trial brief, and the necessary implication behind
this finding is that respondents were not provided with
a reasonable opportunity to address the defense at
trial. Cf. Williams v. Cottonwood Cove Dev. Co., 96 Nev.
857,860,619 P.2d 1219,1221 (1980) (“Failure to timely
assert an affirmative defense may operate as a waiver
if the opposing party is not given reasonable notice and
an opportunity to respond.”). Appellant did not address
this finding in his opening brief, and to the extent that
he attempts to address it in his reply brief, we decline
to consider those arguments. Francis v. Wynn Las Ve­
gas, LLC, 127 Nev. 657, 671 n.7, 262 P.3d 705, 715 n.7
4 Appellant suggests respondents were not prejudiced by ap­
pellant’s refusal to cooperate with the discovery process or that
imposing monetary sanctions would have been an adequate de­
terrent. These suggestions are perplexing, given the lengths to
which appellant has gone to not pay the already-imposed Florida
judgment.

App. 4
(2011). For the same reason, we decline to address ap­
pellant’s argument that the district court improperly
held him personally responsible for the conduct of the
corporate defendants in this case and the non-party
judgment-debtor entities. Accordingly, we
ORDER the judgments of the district court AF­
FIRMED.5
is/

/s/

Gibbons
Gibbons

Silver
Silver

, J. /s/

, C. J.

Douglas
Douglas

, Sr. J.

cc: Hon. Mark R. Denton, District Judge
Thomas J. Tanksley, Settlement Judge
Jeffrey Kirsch
Jolley Urga Woodbury Holthus & Rose
Levine, Kellogg, Lehman, Schneider & Grossman
Eighth District Court Clerk

5 The Honorable Michael Douglas, Senior Justice, participated
in the decision of this matter under a general order of assignment.

App. 5
FFCL
L. CHRISTOPHER ROSE, ESQ.
Nevada Bar No. 7500
lcr@juww.com
JOLLEY URGA WOODBURY & LITTLE
330 S. Rampart Boulevard, Suite 3830
Las Vegas, Nevada 89145
(702) 699-7500 Telephone
(702) 699-7555 Facsimile
Attorneys for Plaintiffs Redwood Recovery Services,
LLC and Elevenhome Limited
DISTRICT COURT
CLARK COUNTY, NEVADA
REDWOOD RECOVERY
SERVICES, LLC, and
ELEVENHOME LIMITED,
Plaintiffs,
v.

) Case No.
) A-15-718683-B
) Dept No. XIII
)

FINDINGS OF
) FACT AND
) CONCLUSIONS
JEFFREY KIRSCH; AMERICAN ) 0F LAW
RESIDENTIAL EQUITIES,
)
LLC; AMERICAN RESIDEN­ ) (Filed Jun. 26,2017)
TIAL EQUITIES LIII, LLC;
) Dates of Trial:
WESTBOURNE CAPITAL,
) January 25,2017
LLC; ROCK BAY, LLC;
) January 26,2017
SLOANE PARK, LLC, VIZCAYA ) February 2, 2017
INVESTMENTS, LLC;
)
OPPSREO, LLC;
)
STATEBRIDGE COMPANY,
)
LLC; DOES 1-10; and ROE
)
ENTITIES 11-20,
)
Defendants,
)

App. 6
This matter came on regularly for a bench trial be­
ginning January 25,2017 and continuing until its com­
pletion. Plaintiffs Redwood Recovery Services, LLC
(“Redwood”) and Elevenhome Limited (“Elevenhome”)
(collectively referred to as “Redwood” or “Plaintiffs”
unless otherwise noted) were represented by their at­
torneys, L. Christopher Rose, Esq. of Jolley Urga Wood­
bury & Little, and Lawrence A. Kellogg, Esq. of Levine
Kellogg Lehman Schneider & Grossman, LLP. Defend­
ant Jeffrey Kirsch (“Kirsch”) represented himself in
proper person. Defendants American Residential Eq­
uities, LLC (“ARE LLC”) and American Residential Eq­
uities LIII (“ARE 53”) were unrepresented and did not
appear at trial (Kirsch, ARE LLC and ARE 53 are col­
lective the “Judgment Debtors”). Defendants Westbourne Capital, LLC (“Westbourne”), Rock Bay, LLC
(“Rock Bay”), Sloane Park, LLC (“Sloane Park”), Viz­
caya Investments, LLC (“Vizcaya”), and OppsREO,
LLC (“OppsREO”) (collectively, the “Westbourne De­
fendants”) were represented by their attorney, Mat­
thew L. Johnson, Esq. of Johnson & Gubler. Judgment
Debtors and the Westbourne Defendants are collec­
tively referred to as “Defendants” unless otherwise noted.
Defendant Statebridge Company, LLC (“Statebridge”)
was represented by its attorney, Gregg Hubley of
Brooks Hubley
The Court, having read and considered the plead­
ings filed by the parties; entering all lawful orders as­
sociated with this case; having considered the evidence
and testimony at trial; and having carefully considered
the oral and written arguments of counsel; and with

x..

App. 7
the intent of deciding all claims before the Court pur­
suant to NRCP 52(a) and 58, the Court makes the fol­
lowing findings of fact and conclusions of law:
I.

FINDINGS OF FACT

PRELIMINARY MATTERS
1. As stated in the Court’s Order filed July 27,
2016 (“Sanction Order #1”), this Court struck the an­
swers of, and entered default against, ARE LLC and
ARE 53 due to multiple violations of the Courts’ orders,
Court rules, refusal to participate in discovery, and
other litigation abuse and misconduct as described in
Sanction Order #1 (the “Litigation Misconduct”), and
failure to oppose Redwood’s Motion to Strike Answers
to Complaint and for Entry of Default. Thus, the alle­
gations of the Complaint are deemed admitted and
true as to ARE LLC and ARE 53. The Court also en­
tered sanctions against Kirsch and the Westbourne
Defendants for their Litigation Misconduct, as set
forth in Sanction Order #1.
2. Kirsch and the Westbourne Defendants failed
to comply with Sanction Order #1, leading this Court
to enter a sanction order against the Westbourne De­
fendants, filed November 14, 2016 (“Sanction Order
#2”) and against Kirsch, filed November 28, 2016
(“Sanction Order #3”). In addition to barring Defend­
ants from introducing, using and/or relying upon Ex­
cluded Evidence (as defined in Sanction Orders #2 and
#3), the Court also ordered that it would apply any
properly applicable evidentiary presumptions (the

App. 8
“Evidentiary Presumptions”). The Evidentiary Pre­
sumptions include that evidence willfully suppressed
would be adverse if produced (NRS 47.250(3)) and that
higher evidence would be adverse from inferior evi­
dence being produced (NRS 47.250(4)). Even without
the Sanction Orders, under NRS 47.240, it is conclu­
sively presumed under Nevada law the truth of a fact
recited in a written instrument between the parties
thereto, or their successors in interest by a subsequent
title. Further, the Court is to presume under NRS
47.250(7) that things which a person possesses are
owned by that person, and that a person is the owner
of property from exercising acts of ownership over it.
NRS 47.250(7)-(8). All of these presumptions are in­
cluded in the “Evidentiary Presumptions”.
3. On the first day of trial, Statebridge and Red­
wood reached a settlement of the claims in this matter,
which was entered on the minutes of the Court. The
settlement terms are as follows: 1) Statebridge stipu­
lated to entry of judgment against Statebridge and in
favor of Plaintiffs on the first, third, fifth, and sixth
claims for relief, with the limited exception as to the
third claim for relief under Nevada’s Uniform Fraudu­
lent Transfers Act to the extent that Statebridge did
not stipulate to entry of judgment for any monetary
damages or attorneys’ fees; 2) Statebridge is bound by
the rulings and relief awarded by the Court (other than
monetary damages or attorneys’ fees), including as to
injunctive relief; 3) the settlement in this case has no
effect whatsoever on any right or remedies that Red­
wood has before Judge Stefany Miley in District Court

App. 9
Case No. A-l 1-652803, or any defenses or issues that
Statebridge would have in that matter, and both Red­
wood and Statebridge reserve all rights, remedies and
defenses in that case.
THE KIRSCH ENTERPRISE, ARE LLC’S OWN­
ERSHIP OF MORTGAGE LOANS
4. Kirsch, a Florida attorney and a principal and
controlling person of ARE LLC, ARE 53, the Westbourne Defendants, and other entities, at all relevant
times operated a business engaged in purchasing and
managing pools of underperforming and non-perform­
ing mortgage loans. Kirsch, through ARE LLC and
ARE 53, bought loans with funds borrowed from non­
resident aliens, representing that he would acquire
mortgages and liquidate the mortgages at a profit.
5. Kirsch operated his business through a num­
ber of entities that all fell under his ownership and/or
control (the “Enterprise” or “Kirsch Enterprise”).
Among the entities in the Enterprise is ARE LLC. He
also created and used numerous, separate single­
purpose entities, each of which were named “American
Residential Equities” followed by a roman numeral.
The single purpose numbered entities would sign an
unsecured promissory note to the non-alien lenders.
The funds borrowed were then used to purchase pools
of non-performing or underperforming mortgages.
6. Ownership and management of the purchased
mortgage loans, servicing rights for the loans, and the

App. 10
corresponding revenues generated by the Enterprise
were placed in ARE LLC.
7. The Kirsch Enterprise retained third-party
loan servicer to perform basic functions such as hold­
ing the mortgage loans, collecting mortgage payments,
paying insurance and property taxes, enforcing loans,
initiating foreclosures, and related loan servicing ac­
tivities. Kirsch also placed mortgage loans with the
Mortgage Electronic Registration System (“MERS”), a
national electronic registry system for mortgage loans.
8. ARE LLC owned thousands of mortgage loans
that were serviced by GMAC Mortgage Corporation
(“GMAC”), one such loan servicer. In the servicing
agreement between ARE LLC and GMAC - signed by
Kirsch himself - ARE LLC represented and warranted
its ownership of all of the mortgage loans:
9.06 Ownership
With respect to each Mortgage Loan,
Owner [ARE LLC] is the owner of all right, ti­
tle, and interest in and to the Mortgage Loan
(and the servicing rights appurtenant
thereto). Each Mortgage Loan is a valid and
collectible obligation of the respective Mort­
gagor; and no Mortgage Loan is subject to the
Home Ownership and Equity Protection Act
of 1994.
Tr Ex. 1, p. 44. That servicing agreement was originally
signed in 2004 but was amended five times - including
in February 2009 when Kirsch again signed personally
to reaffirm ARE LLC’s ownership of the loans.

App. 11
KIRSCH AND HIS ENTERPRISE DEFRAUD
REDWOOD
9. Redwood and Elevenhome, through predeces­
sor entities, loaned substantial funds to the Kirsch En­
terprise for the purpose of making and purchasing
mortgage loans.
10. Redwood and Elevenhome ultimately discov­
ered that certain commercial loans represented to be
legitimate were in fact fabrications based on forged
promissory notes Kirsch created for loans that were
never made. To perpetuate and conceal the fraud,
Kirsch and his Enterprise companies made purported
mortgage interest payments on the non-existent loans.
Kirsch knew, but concealed, that the loans had not
been made. Kirsch later admitted at trial that he lied
about the loans to avoid destroying his business rela­
tionship with Redwood and Elevenhome’s predecessor
entities.
11. Redwood confronted Kirsch after discovering
the fraudulent loans, and Kirsch and a number of his
related entities in the Kirsch Enterprise promised to
refund the fraudulent loan proceeds. Redwood, Elevenhome and Kirsch also negotiated a separation and ter­
mination of their business dealings.
12. The settlement agreement between Red­
wood, Elevenhome, and Kirsch and his Enterprise1 was
1 The other entities in the Kirsch Enterprise obligated to
Redwood and Elevenhome pursuant to the settlement agreement
included Meadow Mint, LLC, Key Biscayne Family Trust, ARE
LLC, American Residential Equities, Inc., ARE Asset

App. 12
entered March 17, 2008 and included execution of
promissory notes to Redwood to be paid $10 million
and to Elevenhome in the amount of $6.6 million.
13. Unbeknownst to Redwood, Kirsch and the
other parties to the settlement agreement, including
those who later became the Judgment Debtors, began
implementing a plan to avoid any liability under the
settlement agreement or for any lawsuit or judgments
that would later arise therefrom. In essence, Kirsch
transferred all of the assets to a new enterprise, and
left the Plaintiffs’ debt behind. His business thereafter
proceeded free of his obligations to Plaintiffs, who were
left attempting to enforce their rights against empty
shells.
14. Kirsch’s plan involved creating and using
non-Judgment Debtor entities to conduct what previ­
ously had been the Judgment Debtors’ business, shift­
ing operations and transferring assets and property to
those non-Judgment Debtor entities, and using bank
accounts of non-Judgment Debtor entities to receive
and conceal payments and funds belonging to Judg­
ment Debtors, among other things.
15. The chronology of events shows that the tim­
ing of Kirsch’s maneuvers and those of the Kirsch En­
terprise were strategic, intentional, in bad faith and
with the intent of evading liability to Redwood. A

Management, LLC, Seabreeze Financial, LLC, and ARE 53, all of
which are included in the definition of the Kirsch Enterprise.

App. 13
summary of the chronology of events based on the evi­
dence includes:
3/17/2008

Judgment Debtors signed a set­
tlement agreement with Redwood

July-Oct. 2008 OppsREO was formed, ARE num­
bered entities were shut down
10/28/2008

Dec. 2008Nov. 2010

Redwood and Elevenhome filed a
Florida lawsuit against Kirsch
and other Judgment Debtors and
parties to the settlement agree­
ment, Redwood Recovery Services,
LLC, et al. v. Jeffrey L. Kirsch, et
al., Case No. 08-65603, Circuit
Court of the Eleventh Judicial
Circuit, Miami-Dade County,
Florida
Kirsch formed multiple entities
as follows

12/31/2008

Rock Bay was formed in Nevada

4/29/2009

Addle Hill was formed

6/1/2009

Sloane Park was formed in Ne­
vada

8/26/2009

Vizcaya was formed

5/10/2010

Rock Bay and Vizcaya filed ficti­
tious firm name certificates to do
business in Clark County, Nevada
as “ARE” and “American Residen­
tial Equities”

App. 14
10/22/2010

Rock Bay opened a US Bank ac­
count in Las Vegas, Nevada

11/23/2010

Westbourne was formed

1/13/11

Kirsch transferred ownership and
servicing of the mortgage loans
from ARE LLC to Westbourne,
which claimed to be owner. Fur­
ther, instead of GMAC as servicer,
servicing of the loans went to Res­
idential Credit Solutions, Inc.

1/17/2011

Redwood’s trial in Florida against
Kirsch and the Judgment Debtors
began

3/7/2011

Final judgments were entered in
favor of Redwood and against
Judgment Debtors in Florida law­
suit

4/1/2011

Kirsch transferred operations,
revenue, employees from ARE
LLC to Addle Hill

12/9/2011

Redwood domesticated Florida
judgments in Nevada

12/20/2011

Rock Bay filed articles of dissolu­
tion in Nevada and organized in
Utah

8/2/2013

Moab Ventures, LLC was formed

16. All of the entities mentioned in the preceding
paragraph are part of the Kirsch Enterprise.

App. 15
VARIOUS TRANSFERS AND TRANSACTIONS
OF THE KIRSCH ENTERPRISE
17. Kirsch and the other Judgment Debtors
formed non-Judgment Debtor entity Rock Bay in the
State of Nevada with the intent to transfer assets to
and conceal assets in Rock Bay.
18. On May 10, 2010, only months before Red­
wood’s Florida trial against Kirsch and the other Judg­
ment Debtors (including ARE LLC and ARE 53) was to
begin, Kirsch signed and filed Certificates of Fictitious
Firm Names with the Clerk of Clark County, Nevada
indicating that Rock Bay would do business in Clark
County, Nevada under the fictitious names of “ARE”
and “American Residential Equities.” Kirsch also
signed and filed similar certificates on that date so that
Vizcaya could likewise do business in Clark County,
Nevada under “ARE” and “American Residential Equi­
ties.”
19. On October 22, 2010, Kirsch opened a bank
account for Rock Bay at a US Bank branch in Las Ve­
gas, Nevada. Kirsch was the only signatory on the bank
account. A few days later, US Bank permitted Kirsch
to add to the US Bank account records that Rock Bay
did business as “American Residential Equities.”
20. By opening an account for Rock Bay under
the fictitious firm name of American Residential Equi­
ties, Kirsch and his Enterprise were able to deposit
checks and wire transfers payable to Judgment Debtor
ARE LLC into the bank account of non-Judgment
Debtor entity, Rock Bay, thereby concealing Judgment

App. 16
Debtors’ funds and avoiding Redwood’s discovery and
execution efforts.
21. After establishing Rock Bay’s US Bank Ac­
count, Kirsch, Judgment Debtors, and Rock Bay
caused millions of dollars payable to Judgment Debt­
ors to be diverted and deposited into the Rock Bay’s
account instead of Judgment Debtors’ accounts. From
November 1, 2010 to March 31, 2014, payments in­
tended for and belonging to Judgment Debtors but de­
posited into Rock Bay’s account exceeded $2 million.
Thereafter, the Rock Bay account was used by Kirsch
as the central bank account for his Enterprise and the
various new entities that now operated his business.
22. On January 13, 2011, just days prior to the
beginning of the Florida trial, Kirsch transferred own­
ership and servicing of the mortgage loans to new en­
tities. Whereas ARE LLC previously owned the
mortgage loans, now Westbourne claimed to be owner.
Further, instead of GMAC as servicer, servicing of the
loans went to Residential Credit Solutions, Inc. Kirsch
again signed the servicing agreement personally, and
now Westbourne - not ARE LLC - represented and
warranted its ownership of all of the mortgage loans.
23. On January 17, 2011, the Florida trial be­
tween Redwood and Judgment Debtors began.
24. On March 7, 2011, the Circuit Court of the
Eleventh Judicial Circuit for Miami-Dade County,
Florida found in favor of Redwood and against Kirsch,
ARE LLC, and other defendants in the amount of
$10,522,910.00 plus accrued interest (“Redwood

App. 17
Judgment”) and found in favor of Elevenhome against
ARE 53 in the amount of $6,650,435.13 plus accrued
interest (“Elevenhome Judgment”) (collectively, the
“Florida Judgments”).
25. On April 1,2011 - four days after the Florida
Judgments became final - ARE LLC transferred all of
its business operations, employees, revenue, and man­
agement operations to Addle Hill, Inc. (“Addle Hill”), a
then recently created California entity within the
Kirsch Enterprise. William Hirschkowitz (“Hirschkowitz”), ARE LLC’s chief financial officer who then be­
gan working for Addle Hill, admitted these facts under
oath in testimony taken by Plaintiffs in aid of execu­
tion:
•

All functions and operations ARE LLC en­
gaged in prior to the transfer on April 1, 2011
began to be performed by Addle Hill after the
transfer without any interruption;

•

Addle Hill did not pay, nor did ARE LLC re­
ceive, any consideration for the transfer of its
business operations, employees, revenue,
management operations or other assets;

•

Just as Kirsch at all times dominated, con­
trolled, and oversaw all operations for ARE
LLC and the other Judgment Debtors, Kirsch
at all times dominated, controlled, and over­
saw all operations for Addle Hill;

•

the job titles and compensation of all of the
employees did not change, they merely began
working for Addle Hill instead of ARE LLC;

App. 18
•

ARE LLC closed its bank account and a bank
account was opened for Addle Hill;

•

Addle Hill started paying all expenses of op­
erations for the Kirsch Enterprise, including
paying for Judgment Debtors’ attorneys;

•

Addle Hill collected the money generated by
the mortgage loans and began collecting the
management fee that ARE LLC once col­
lected;

•

there was no gap between the change - one
day all operations and employees were with
ARE LLC and the next they belonged to Addle
Hill;

•

Addle Hill did not assume any of ARE LLC’s
liabilities; only assets were transferred, none
of the debts;

•

After the transfer, ARE LLC had no further
operations whatsoever;

•

All financial records for ARE LLC were de­
stroyed on an annual basis at the direction of
Jeffrey Kirsch.

26. The purpose of the transfer from ARE LLC to
Addle Hill was to place the operating and revenue pro­
ducing arm of the Kirsch Enterprise beyond Redwood’s
reach once Redwood obtained the Florida Judgments.
27. On or about September 28, 2011, as a result
of Hirschkowitz’s testimony, Redwood filed a Motion to
Implead Addle Hill as a defendant in the Florida ac­
tion.

App. 19
28. Within days after this Impleader was filed,
Kirsch began using the Rock Bay Nevada Bank ac­
count to pay all of the expenses of his operations, in­
cluding employees and attorneys representing the
Judgment Debtors in contesting collection of the Flor­
ida Judgments. Further, substantial, if not all of the
revenues of Kirsch’s operations were thereafter depos­
ited into the Rock Bay US Bank account.
29. In the midst of the maneuvering discussed
above, Kirsch continued to transfer servicing of the
mortgage loans.
30. On November 3, 2011, Kirsch moved the
loans from Residential Credit Solutions to a new loan
servicer, Marix Servicing Company, LLC. Once again,
as head of his Enterprise, Kirsch personally signed the
servicing agreement between Marix Servicing and
Westbourne. Once again, Westbourne now represented
and warranted that it was the owner of all mortgage
loans that ARE LLC previously represented and war­
ranted that it owned.
31. On April 20, 2012, Kirsch caused all of the
mortgage loans to be transferred for servicing yet
again, this time to Statebridge. Kirsch, once again, per­
sonally signed the servicing agreement between West­
bourne and Statebridge.
32. The testimony from Statebridge representa­
tive, David McDonnell, established he [sic] following:
•

Statebridge began servicing loans for West­
bourne in April 2012;

App. 20
•

every loan Statebridge serviced came from
Marix Servicing;

•

Kirsch signed the servicing agreement and
the powers of attorney for Westbourne;

•

OppsREO was the entity Westbourne used to
receive title to foreclosed properties;

•

Statebridge received the restraining order
and injunction issued by Judge Stefany Miley
in District Court Case No. A-ll-652803 en­
joining the transfer of properties and the re­
lease of any funds for mortgage loans2;

•

after the injunction, Westbourne instructed
Statebridge to release and transfer a number
of properties to a different loan servicer, lead­
ing to those properties being transferred after
entry of the injunction order;

•

the only reason Statebridge transferred ser­
vicing of loans after entry of the injunction
was because Westbourne instructed Statebridge to do so.

33. On June 20, 2012, the Circuit Court of the
Eleventh Judicial Circuit for Miami-Dade County,
Florida, gave permission to Redwood to implead Addle
Hill in the Florida action. Redwood filed suit against
2 In separate judgment domestication and enforcement pro­
ceedings before Judge Stefany Miley in Eighth Judicial District
Court Case No. A-ll-652803, the District Court issued a restrain­
ing order and later an injunction against Kirsch, the other Judg­
ment Debtors, and those persons who received notice of the
injunction, from transferring or disposing of any interest in mort­
gage loans and properties.

App. 21
Addle Hill alleging claims for successor liability and
seeking other related relief against Addle Hill to im­
pose liability for the Florida Judgments.
34. After Redwood was allowed to implead Addle
Hill, Kirsch then further transferred all assets and op­
erations from Addle Hill to another Kirsch-controlled
entity, Westboume.
35. Kirsch and the Kirsch Enterprise’s transac­
tions then began to occur through Westbourne. The ev­
idence showed that:
•

operations and revenue that had been moved
from ARE LLC to Addle Hill were then moved
to Westbourne;

•

employees formerly employed with ARE LLC
then later with Addle Hill thereafter began to
work for Westbourne;

•

ARE LLC’s assets are the same assets trans­
ferred to the Westbourne Defendants, and all
assets came from ARE LLC;

•

Kirsch oversaw the entire Enterprise organi­
zation, including Addle Hill and Westbourne;

•

ARE LLC’s General Counsel, Jacquelyn Lisette Smyth, then became General Counsel
for Addle Hill, and then for Westbourne. She
testified about Westbourne and its successor
relationship and connection to Judgment
Debtors and the Kirsch Enterprise. She re­
fused to answer when questioned about Westbourne’s business and Kirsch’s involvement
with Westbourne; however, she admitted

App. 22
doing legal work for Westbourne and being
paid for that work by either ARE LLC or Ad­
dle Hill; when performing work for Addle Hill
she was paid by ARE LLC during 2009;
•

Pamela Perrot, another employee of the
Kirsch Enterprise, further testified in April
2015 that she was initially an employee of
ARE LLC, later became employed by Addle
Hill, and at the time of her testimony was em­
ployed by Westbourne; her job did not change
at all, she was just told she worked for a dif­
ferent company; the change to Westbourne
happened in the end of 2012;

•

during the course of her employment, she
dealt with Jeffrey Kirsch, and he was the boss.

36. On October 16,2015, the Circuit Court of the
Eleventh Judicial Circuit for Miami-Dade County,
Florida, granted Redwood’s Motion for Partial Sum­
mary Judgment against Addle Hill. Redwood Recover
Services LLC, et al. v. Jeffrey L. Kirsch, et al., and Addle
Hill, Inc., Order Granting Partial Summary Judgment
on Count I of Amended Interpleader Complaint, CV08-65603 CA 40 (Oct. 16,2015). In the court’s order, the
court found that all of the assets of ARE LLC were
transferred to Addle Hill; however, none of the debts of
ARE LLC were transferred to Addle Hill. Additionally,
the Florida court found that “ARE LLC was operated
and controlled by Defendant Kirsch” and “[a]t the time
of the transfer, Kirsch also operated and controlled Ad­
dle Hill.” No consideration was paid for any of the
transfers between ARE LLC and Addle Hill. Addition­
ally, “all of ARE LLC’s former employees performed the

App. 23
same jobs for Addle Hill, in return for the same com­
pensation.” Id. These undisputed facts led the Florida
court to conclude that Addle Hill was the alter ego of
ARE LLC as it was simply a “mere continuation ofARE
LLC that was used with the improper purpose of evad­
ing collection of the Judgment.” Id. at 'll 17-18. Thus,
Addle Hill was liable under the alter ego theory of suc­
cessor liability and subject to Redwood’s Judgments
against ARE LLC. The Florida Court found alter-ego
relationships, successor liability and fraudulent trans­
fers between ARE LLC and Addle Hill. Inc., making
specific findings about the purpose of their dealings:
18. The Court also finds that ARE, LLC’s as­
sets and revenue stream were fraudulently
transferred without consideration to Addle
Hill. Indeed, both Mr. Hirschkowitz and Ms.
Smyth confirmed this with their testimony.
19. Additionally, the transferring of ARE,
LLC’s entire business just after judgment
leads to the inescapable conclusion that the
transfer was done with the improper purpose
of evading collection of the Judgment. Addle
Hill has failed to present any evidence to the
contrary.
Tr. Ex. 68, ff 18-19.
37. The Florida Court later entered final judg­
ment against Addle Hill.
38. Redwood eventually obtained discovery of
Rock Bay’s account records at US Bank, which estab­
lish that Defendants commingled funds in the Rock

App. 24
Bay account, the same account into which over $2 mil­
lion in Judgment Debtor funds were deposited. Kirsch
used those funds not only to finance his Enterprise but
also for cash and personal expenses.
39. More specifically, Rock Bay’s account records
for November 2010 through March 2014 show:
•

Checks made payable to Judgment Debtors
totaling $2,179,986.29 were deposited in Rock
Bay’s account;

•

An additional $809,456.02 were checks paya­
ble to entities other than Rock Bay, and each
entity was controlled by Kirsch;

•

Deposits from Westbourne totaled $1,522,785,
while withdrawals to Westbourne were
$322,775;

•

Deposits from OppsREO totaled $476,639,
while withdrawals to OppsREO totaled
$415,162;

•

Only $931,339 in funds were checks payable
to Rock Bay (as opposed to almost $3 million
payable to Judgment Debtors or other enti­
ties);

•

Kirsch used a debit card drawn against the
account for personal expenses and cash with­
drawals;

•

Rock Bay paid Judgment Debtors’ attorneys’
fees and costs in fighting Redwood’s collection
efforts in the amount of $646,818.95.

App. 25
The Rock Bay account was a business account with
U.S. Bank, whose representative testified in deposition
that it had no responsibility to monitor masked depos­
its or third party deposits to their customer business
accounts.
40. The money deposited into the Rock Bay ac­
count was generated by the same pool of mortgage as­
sets that had once been managed by ARE LLC.
41. Kirsch has continuously showed through his
actions that he is attempting to avoid the liability of
the Judgments lawfully imposed on him and the other
Judgment Debtors, which he controls.
42. Kirsch’s desire to hide assets from Redwood
is evidenced by the fact that he directed his chief finan­
cial officer each year to destroy the financial records
and computer hard drives for any of the entities in the
Kirsch Enterprise so as to render it impossible to re­
view specific transactions.
43. At all relevant times, Kirsch showed perva­
sive control over the affairs of Judgment Debtors, the
Westbourne Defendants and the Kirsch Enterprise as
a whole. Kirsch orchestrated and caused the transfer
of assets, operations, revenue, employees within the
Kirsch Enterprise and in particular from ARE LLC to
non-Judgment Debtor entities within the Enterprise.

App. 26
PERSONAL JURISDICTION AND DEFEND­
ANTS’ CONTACTS WITH NEVADA
44. The evidence of Kirsch’s Nevada contacts
was substantial, including the following:
•

Kirsch caused the formation of Rock Bay, a
Nevada limited liability company, on Decem­
ber 31, 2008. He also signed annual lists filed
with the Nevada Secretary of State in 2009
and 2010. Tr. Ex. 2, pp. 1-3;

•

Kirsch caused Sloane Park, another Nevada
limited liability company, to be formed in June
2009. Notably, Sloane Park’s member is Addle
Hill, Inc., the corporation that the Florida
court already found to be controlled by Jeffrey
Kirsch. Tr. Ex. 68, p. 4, f E (“At the time ARE,
LLC transferred its business to Addle Hill,
Defendant Kirsch controlled Addle Hill and
also controlled ARE, LLC . . . Defendant
Kirsch oversaw the daily operations of Addle
Hill.”);

•

Kirsch signed and filed fictitious firm name
certificates with the Clerk of Clark County,
Nevada on May 10, 2010 so that Rock Bay
could do business in Nevada as “ARE” and
“American Residential Equities”;

•

Kirsch also signed and filed fictitious firm
name certificates with the Clerk of Clark
County on May 10,2010 so that Vizcaya could
do business in Nevada as “ARE” and “Ameri­
can Residential Equities”;

App. 27
•

Kirsch opened a bank account for Rock Bay at
the McCarran branch of US Bank in Las Ve­
gas, Nevada on October 22,2010, as evidenced
by the US Bank account opening document
dated October 22,2010 accompanied by a copy
of Kirsch’s Florida driver’s license. US Bank’s
regional operation manager, Karen Edmon­
son, testified at trial about the opening of the
account, and that a driver’s license is required
to verify the identification of the individual
opening the account;

•

US Bank documents show Kirsch as the
“owner” of the account for Nevada entity Rock
Bay;

•

After Redwood applied to domesticate its
judgments in Nevada on December 6, 2011,
Kirsch immediately just two weeks later personally signed and filed Articles of Disso­
lution for Rock Bay with the Nevada Secre­
tary of State. Notably, Kirsch signed as the
manager or member for Rock Bay. Kirsch then
signed the documents necessary that very
same day to form and domesticate Rock Bay
in the state of Utah, which he did on an expe­
dited basis;

•

Kirsch caused millions of dollars of checks
payable to Judgment Debtors “ARE” and
“American Residential Equities” to be depos­
ited into the Rock Bay account established in
Nevada. Redwood’s summary chart of US
Bank deposits shows $2,179,986.29 in Judg­
ment Debtor funds making their way to the
Rock Bay account;

App. 28
•

After Redwood’s judgments were domesti­
cated in Nevada but before the filing of this
action, Kirsch and the other Judgment Debt­
ors voluntarily appeared in Nevada to seek
protective orders and otherwise attempt to ob­
struct and defeat Redwood’s post-judgment
discovery and execution efforts. See Court
Docket and pleadings on file in District Court
Clark County, Nevada, Case Number A-ll652803-F. NRS 47.130;

•

Kirsch caused Rock Bay to petition for a writ
of mandamus to the Nevada Supreme Court,
resulting in a published decision, Rock Bay,
LLC v. District Court, 129 Nev. Adv. Op. 21,
298 p.3d 441, 447 (2013) (allowing discovery
of Rock Bay’s US Bank records where evi­
dence of the relationship between Judgment
Debtors and Rock Bay raised “reasonable sus­
picion as to the good faith of the asset trans­
fers between them”). NRS 47.130;

•

Judge Stefany Miley entered a restraining or­
der against Kirsch and Judgment Debtors en­
joining the transfer of assets. Kirsch and
Judgment Debtors later stipulated to extend
the injunction and to engage in discovery.
Judge Miley later extended the preliminary
injunction against Kirsch and other Judg­
ment Debtors given their claim they owned no
assets but refused to engage in discovery on
the issue. Kirsch was also ordered to appear
personally before Judge Miley to answer ques­
tions about assets, which he has yet to do;

App. 29
•

After Judge Miley entered the restraining or­
der on February 1, Kirsch signed and recorded
deeds and assignments of mortgages in viola­
tion of the injunction order. The evidence of
this activity with these properties was part of
the reason Judge Miley extended the injunc­
tion order and ordered Kirsch to appear to tes­
tify about assets. Kirsch also caused assets to
be transferred from Statebridge after entry of
the injunction;

•

Kirsch later filed a notice of appeal of the in­
junction and order for his appearance. The
Nevada Supreme Court affirmed Judge Miley’s orders in their entirety. Order of Affir­
mance, Supreme Court Case Number 66728.
NRS 47.130.

45. Kirsch presented no credible evidence to con­
tradict the proof described above of his contacts toward
and relationship with Nevada. Kirsch is subject to per­
sonal jurisdiction in Nevada, both general or at a min­
imum specific jurisdiction.
46. The evidence of Westboume’s role in the
Kirsch Enterprise and contacts with Nevada was sub­
stantial. The evidence showed that Kirsch and Westbourne are inseparable from each other. The evidence
of their contacts with each other and with Nevada in­
cluded the following:
•

Westbourne was formed on November 23,
2010 - less than two months from the begin­
ning of the Florida trial against Kirsch and
his Judgment Debtors;

App. 30
•

Kirsch personally signed on behalf of Westbourne to be the managing member of
OppsREO;

•

Westbourne is a related entity to Rock Bay, a
Nevada limited liability company, as Westbourne admitted in a certificate of interested
parties filed in its federal court lawsuit
against Residential Credit Solutions, Inc.;

•

Whereas Judgment Debtor ARE LLC had
previously claimed to be owner of Kirsch’s
portfolio of thousands of mortgage loans,
Westbourne later assumed ownership of and
servicing rights for all the mortgage loan
properties with various third-party loan ser­
vicing companies, including Residential
Credit Solutions, Marix Servicing, and
Statebridge. Kirsch signed all of the servicing
agreements;

•

The revenue and profits generated by the
loans serviced for Westbourne is the same rev­
enue and profits generated by the same loans
formerly belonging to and serviced for Judg­
ment Debtor ARE LLC;

•

The proceeds of the former assets of Judgment
Debtor ARE LLC - later serviced for West­
bourne - were then deposited into the Nevada
bank account of a Nevada limited liability
company - i.e., Rock Bay’s US Bank account according to the undisputed testimony of
Kirsch’s CFO, William Hirschkowitz;

•

The proceeds of those Judgment Debtor assets
later owned by and serviced for Westbourne

App. 31
and deposited into the Rock Bay account ex­
ceeded $2.1 million just for payments payable
to ARE LLC and American Residential Equi­
ties;
•

The same Nevada bank account of the Nevada
entity (Rock Bay) where Judgment Debtor as­
sets and proceeds were deposited is the same
Nevada account that Westbourne deposited
and withdrew over $1.8 million;

•

In addition to comingling funds with Judg­
ment Debtors and Rock Bay in the Nevada ac­
count of a Nevada limited liability company,
Kirsch personally withdrew over $500,000 in
cash and cashier’s checks from the Rock Bay
account. Kirsch was the only signatory on the
account;

•

Kirsch signed an affidavit stating that he is a
member of Westbourne;

•

Statebridge considered Kirsch to be the client
while Statebridge serviced loans for West­
bourne. Tr. Ex. 48 (“Dear Mr. Kirsch: First, I
would like to thank you for being a client of
Statebridge.”);

•

Kirsch signed a limited power of attorney on
behalf of Westbourne to grant authority to
Statebridge to service loans;

•

Westbourne paid for Kirsch and other Judg­
ment Debtors’ personal attorney fees to Judg­
ment Debtors’ Nevada law firm, Reisman and
Sorokac;

App. 32
•

Kirsch signed documents assigning mort­
gages from Westboume to his most recent ve­
hicle to avoid judgment, Moab Ventures, LLC.

47. Defendants presented no credible evidence to
contradict the proof described above of Westbourne’s
relationship with Kirsch and its contacts with Nevada.
Westbourne is subject to personal jurisdiction in Ne­
vada, both general or at a minimum specific jurisdic­
tion.
48. The evidence of Sloane Park’s role in the
Kirsch Enterprise and contacts with Nevada was sub­
stantial, including the following:
•

Sloane Park is a Nevada limited liability com­
pany;

•

As William Hirschkowitz testified, assets that
had been owned and managed through ARE
LLC were then transferred to “roll-up” compa­
nies, which included Sloane Park. Those are
the same assets that were managed for ARE
LLC until they were transferred;

•

Because Sloane Park received title to Judg­
ment Debtor assets as a roll-up company, the
proceeds of those assets were deposited into
the Nevada bank account of a Nevada entity
- i.e., Rock Bay’s account with US Bank.

49. Defendants presented no credible evidence to
contradict the proof described above. Sloane Park is
subject to personal jurisdiction in Nevada, both gen­
eral and specific jurisdiction.

App. 33
50. The evidence of Vizcaya’s role in the Kirsch
Enterprise and contacts with Nevada was substantial,
including the following:
•

Kirsch signed and filed fictitious firm name
certificates with the Clark County, Nevada
clerk on May 10,2010 so that Vizcaya could do
business in Nevada as “ARE” and “American
Residential Equities”;

•

Assets that had been owned and managed
through ARE LLC were then transferred to
“roll-up” companies, which included Vizcaya.
According to William Hirschkowitz, those are
the same assets that were managed for ARE
LLC until they were transferred;

•

Because Vizcaya received title to Judgment
Debtor assets as a roll-up company, the pro­
ceeds of those assets were deposited into the
Nevada bank account of a Nevada entity - i.e.,
Rock Bay’s account with US Bank.

51. Defendants presented no credible evidence to
contradict the proof of Vizcaya’s activities - both di­
rectly and as part of the Kirsch Enterprise - as sub­
jecting it to specific jurisdiction in Nevada.
52. The evidence of Rock Bay’s role in the Kirsch
Enterprise and contacts with Nevada was substantial,
including the following:
•

Rock Bay was a Nevada limited liability com­
pany organized on December 31, 2008 - after
Judgment Debtors became liable to Redwood;

App. 34
•

Kirsch signed and filed fictitious firm name
certificates with the clerk of Clark County, Ne­
vada on May 10, 2010 so that Rock Bay could
do business in Nevada as “ARE” and “Ameri­
can Residential Equities”;

•

Kirsch opened a bank account for Rock Bay at
US Bank’s Las Vegas, Nevada branch, the
McCarran branch, on October 22, 2010;

•

Rock Bay dissolved on December 20, 2011,
just days after Redwood domesticated its Flor­
ida judgments in Nevada. Kirsch then caused
Rock Bay to scurry to Utah to domesticate
there;

•

Rock Bay received deposits of over $2.1 mil­
lion in payments payable to Judgment Debt­
ors from what were once Judgment Debtor
assets;

•

Nevada was the hub of Kirsch’s Enterprise op­
erations through Rock Bay. Rock Bay not only
received millions of dollars in Judgment
Debtor assets, but also received payments
from and made payments to the other Westbourne Defendants in this case, including
Westbourne and OppsREO;

•

Rock Bay funded Kirsch and other Judgment
Debtors’ personal obligations, including pay­
ing their attorneys who defended judgment
collection proceedings;

•

Rock Bay likewise voluntarily appeared in
Nevada to fight Redwood’s discovery and exe­
cution efforts. Rock Bay moved to quash

App. 35
subpoenas and took a writ to the Nevada Su­
preme Court;
•

As William Hirschkowitz testified, money
generated by ARE LLC’s assets was deposited
into Rock Bay’s account.

53. Defendants presented no credible evidence to
contradict the proof of Rock Bay’s activities - both di­
rectly and as part of the Kirsch Enterprise - as sub­
jecting it to general and specific jurisdiction in Nevada.
54. The evidence of OppsREO’s role in the Kirsch
Enterprise and contacts with Nevada was substantial,
including the following:
• Kirsch signed an affidavit stating that he is a
member of OppsREO;
• OppsREO likewise funded personal obliga­
tions and expenses for Kirsch and other Judgment
Debtors, including payment of their attorney fees
in defending judgment collection efforts;
• David McDonnell, Statebridge’s managing di­
rector, testified, and Statebridge records show,
that Kirsch used OppsREO to receive title to any
foreclosed properties;
• Since OppsREO received title to foreclosed
properties of Westbourne, and Westbourne re­
ceived the assets and properties once owned by
ARE LLC, OppsREO received transfers of assets
that were once Judgment Debtors’ and then tun­
neled through the Kirsch Enterprise;
• OppsREO also received funds from and depos­
ited funds totaling over $900,000 into the Nevada

App. 36
bank account of a Nevada limited liability com­
pany (Rock Bay’s account at US Bank);
• Kirsch also authorized OppsREO’s appoint­
ment of Westbourne as managing member.
55. Defendants presented no credible evidence to
contradict the proof of OppsREO’s activities - both di­
rectly and as part of the Kirsch Enterprise - as sub­
jecting it to specific jurisdiction in Nevada.
56. Additionally, Defendant ARE LLC is subject
to personal jurisdiction in Nevada as a result of it: do­
ing business in Nevada; funneling funds to the Nevada
bank account of a Nevada entity; using Nevada enti­
ties and bank accounts to conceal assets from Red­
wood; and engaging in the other acts described herein.
57. Defendant ARE 53 is also subject to personal
jurisdiction in Nevada as a result of it: doing business
in Nevada; funneling funds to the Nevada bank ac­
count of a Nevada entity; using Nevada entities and
bank accounts to conceal assets from Redwood; and en­
gaging in the other acts described herein.
JURISIDICTION [sic] BASED ON AGENCY
58. The evidence shows that Kirsch is the agent
for each and every other Defendant, and the other De­
fendants are Kirsch’s agents. Kirsch created and con­
trols each of the Judgment Debtors and Westbourne
Defendants and owns them directly or beneficially. In
addition to the evidence cited previously and presented
at trial, which is incorporated herein:

App. 37
Kirsch signs all the checks for all Defendants;
Kirsch withdrew over $500,000 in cash, cash­
ier’s checks and ATM withdrawals from Rock
Bay’s account, which contained commingled
funds from the other Defendants;
Kirsch signed all of the servicing agreements
for servicing of the mortgage loans, and pow­
ers of attorney;
As Mr. Hirshkowitz [sic] testified, Kirsch was
“the boss”. It was all Kirsch’s business, he
signed all the checks and no one else had
check signing authority;
Kirsch oversaw the entire organization (e.g.,
the Kirsch Enterprise), including ARE LLC,
Addle Hill, Sloane Park, Vizcaya, Rock Bay,
OppsREO and Westbourne.
59. Kirsch has at all times made all the deci­
sions, controlled each dollar earned or spent, controlled
each mortgage loan purchased or sold, and controlled
and choreographed each step of each Defendant. As
agents of each other, all of Kirsch’s contacts with the
State of Nevada are attributable to each and every
other Defendant.
JURISDICTION BASED ON ALTER EGO
60. Personal jurisdiction is also proper based on
veil-piercing and reverse veil-piercing as Defendants
are the alter-egos of each other.

App. 38
61. The evidence that all Defendants are influ­
enced and governed by Kirsch and each other is sub­
stantial, and, in addition to all other evidence cited
herein and presented at trial, includes the following
evidence:
•

Defendants shared debts and liabilities with
each other. Payment for Kirsch’s and Westbourne’s attorneys’ fees came from Rock Bay’s
bank account. Later, Westbourne paid Kirsch
and ARE LLC’s attorneys’ fees;

•

All employees of ARE LLC later worked for
Addle Hill and then for Westbourne, all of
which are Kirsch controlled;

•

All Kirsch entities operated out of the same
address and office at 100 Wilshire Boulevard,
Suite 250, Santa Monica, California 90401;

•

Kirsch signed all the checks for ARE LLC and
also for all Westbourne Defendants;

•

All Westbourne Defendants comingled funds
in a single bank account of Rock Bay;

•

Employees who worked for ARE LLC and Ad­
dle Hill had a “Westbourne” email address;

•

Kirsch withdrew over $500,000 in cash, cash­
ier’s checks and ATM withdrawals from Rock
Bay’s account;

•

As Hirschkowitz testified, Kirsch was “the
boss”, signed all the checks, and oversaw the
entire Kirsch Enterprise;

App. 39
•

Defendants comingled and diverted funds, but
Kirsch also has treated the assets of the En­
terprise as his own. Indeed, by all of the Westbourne Defendants comingling funds in the
single bank account of Rock Bay, they have
each treated each other’s assets as their own.

62. Further, there is both ownership and a unity
of interest between Kirsch and the Westbourne De­
fendants. First, Kirsch signed sworn declarations stat­
ing that he is a member of Westbourne and OppsREO,
thereby attesting to his ownership interest in those en­
tities. As to Rock Bay, Sloane Park and Vizcaya, the ev­
idence and circumstances show an indisputable unity
of interest between Kirsch and all of the Westbourne
Defendants. Kirsch is “the boss” according to William
Hirschkowitz. Kirsch is the undisputed, ultimate au­
thority for all of the Westbourne Defendants’ dealings.
He negotiated and signed all the loan servicing agree­
ments. The Kirsch Enterprise deposited funds into and
paid bills from a common bank account (Rock Bay) and
shared debts and liabilities. This and the other evi­
dence herein shows a clear unity of interest between
Kirsch and the Westbourne Defendants making them
inseparable from another.
63. Adherence to the corporate fiction would
sanction a fraud or injustice. The evidence shows that
Kirsch’s manipulation of Judgment Debtors, the West­
bourne Defendants, their assets, and operations has
kept assets beyond Redwood’s reach. Further, the Flor­
ida court already found that Kirsch and ARE LLC are
alter egos of Addle Hill, another entity in the Kirsch

App. 40
Enterprise. In imposing alter-ego and successor liabil­
ity in that case, the Florida court recognized KirSch’s
fraudulent scheme by stating that assets were fraudu­
lently transferred without consideration, which “leads
to the inescapable conclusion that the transfer was
done with the improper purpose of evading collection
of the [Redwood] Judgment.” Defendants conceded in
this case that Addle Hill was the “lynchpin” [sic] to
their liability.
64. Kirsch and the Westbourne Defendants have
argued extensively that they have no control or agency
relationship with each other. Yet, on February 27,2017,
they filed a single, joint closing argument brief consist­
ing of 45 pages (the “Joint Brief’).
65. In their Joint Brief, Defendants did not dis­
pute dr address that Kirsch and ARE LLC were al­
ready adjudicated in Florida to have engaged in
fraudulent transfers and to be the alter-ego of another
Kirsch entity, Addle Hill. They also did not dispute that
ARE LLC and ARE 53’s ownership and fraudulent
transfer of mortgage loans and other assets are
deemed true based on default entered against them
through the first Sanction Order filed July 27,2016.
66. In their Joint Brief, Kirsch and the other De­
fendants also admitted that “Judgment Debtors have
no collectible assets” (Joint Brief at 19:19-20). Kirsch
also argued in his opening statement that Redwood
merely signed its March 2008 settlement agreement
with the “wrong parties”. But each of the Westbourne
Defendants (and every other Kirsch entity) were

App. 41
formed, received assets from, and comingled assets
with Judgment Debtors after Kirsch and his Judgment
Debtor entities became liable to Redwood in March
2008. Notably, that liability arose after Plaintiffs dis­
covered they had invested with Kirsch and his Enter­
prise in fraudulent loans that had never been made
and that were based on forged promissory notes.
Kirsch knew the loans were fraudulent and based on
forgeries, and he concealed the fraud and lied about the
loans to Plaintiffs’ predecessor entities. At the Florida
trial, Kirsch admitted he lied about the loans to avoid
destroying his business relationship with Redwood
and Elevenhome’s predecessor entities.
67. Redwood has engaged in substantial efforts
to satisfy the Florida Judgments; however, to date,
Redwood has recovered only minimal amounts.
68. Defendants continuously transferred and
concealed assets from Redwood, which has thwarted
Redwood’s collection efforts.
69. Defendants’ actions were unexplained and
unjustifiable and, as the Florida Court found, lead to
the inescapable conclusion that the actions were delib­
erately intended to avoid liability to Redwood for the
Florida Judgments.
70. Defendants’ conduct, including their , use of
the Kirsch Enterprise, has repeatedly blocked, frus­
trated, or delayed Redwood’s collection efforts, thus al­
lowing Judgment Debtors to evade responsibility for
the Florida Judgments.

App. 42
71. If any findings of fact are properly conclu­
sions of law, they shall be treated as if appropriately
identified and designated.
II.

CONCLUSIONS OF LAW

72. The testimony in prior proceedings that Red­
wood presented through hearing transcripts or deposi­
tions was properly presented and admitted, including
the deposition testimony of Jeffrey Kirsch.
73. The Court is constitutionally bound to up­
hold the Redwood Judgment and Elevenhome Judg­
ment entered by the Circuit Court of the Eleventh
Judicial Circuit, Miami-Dade County, Florida. See Art.
IV, § 1 of the United States Constitution; NRS 17.330400. Defendants have not provided evidence of fraud,
lack of due process, or lack of jurisdiction in the ren­
dering state to invalidate any of the Judgments from
the Florida case. See Rosenstein v. Steele, 103 Nev. 571,
573,747 P.2d 230,232 (1987). This Court finds that the
Redwood Judgment and Elevenhome Judgment are
not subject to any appeal and have been domesticated
in Nevada under the Foreign Judgments Act and are
thus enforceable in Nevada. See Donlan v. State, 127
Nev. 143,145, 249 P.3d 1231,1233 (2011) (stating that
“[t]he Constitution requires that ‘Full Faith and Credit
shall be given in each State to the public Acts, Records,
and judicial Proceedings of every other State. And the
Congress may by general Laws prescribe the Manner
in which such Acts, Records and Proceedings shall be

App. 43
proved, and the Effect thereof.’”) quoting U.S. Const,
art. IV, § 1.
ARE LLC’S OWNERSHIP OF LOANS
74. Under Nevada law, ARE LLC’s ownership of
the mortgage loans is conclusively established based
on the representations of ownership made in the
GMAC servicing agreement. NRS 47.240(2), which
sets forth this state’s conclusive presumptions, includ­
ing, “The truth of the fact recited, from the recital in a
written instrument between the parties thereto, or
their successors in interest by a subsequent title, but
this rule does not apply to the recital of a considera­
tion.”
75. Other Evidentiary Presumptions apply as
well, including (i) that things which a person possesses
are owned by that person, (ii) that a person exercising
acts of ownership of property is the owner of property,
and (iii) common reputation of ownership indicates
ownership. NRS 47.250(7)-(8).
76. ARE LLC both possessed and exercised com­
plete control over the mortgage loans in the Kirsch En­
terprise. Defendants presented no credible evidence to
dispute this fact. Based on the Evidentiary Presump­
tions and the other evidence presented at trial, ARE
LLC was the owner of all mortgage loans that were
later transferred to Defendants and other entities in
the Kirsch Enterprise.

App. 44
PERSONAL JURISDICTION
77. The Court finds it has personal jurisdiction
over all Defendants.
78. Jurisdiction over a nonresident defendant is
proper when the plaintiff shows that the existence of
jurisdiction satisfies Nevada’s long-arm statute and
does not offend the principles of due process. Viega
GmbH v. Eighth Jud. Dist. Ct., 130 Nev. Adv. Op. 40,
328 P.3d 1152,1157-58 (2014). Nevada’s long-arm stat­
ute requires only that the defendant have such mini­
mum contacts with Nevada that the defendant could
reasonably anticipate being hauled into Nevada court.
Id. Further, “[al defendant’s contacts with a state are
sufficient to meet the due process requirement if either
general personal jurisdiction or specific personal juris­
diction exists.” Arbella Mut. Ins. Co. v. Eighth Judicial
Dist. Court ex rel. County of Clark, 122 Nev. 509, 512,
134 P.3d 710, 712 (2006).
79. The Court has general personal jurisdiction
over any corporation or business entity when the busi­
ness entity is deemed “at home” in Nevada or has affil­
iations with Nevada that are “so continuous and
systematic as to render them essentially at home” in
Nevada. Viega GmbH, 130 Nev. Adv. Op. 40,328 P.3d at
1157-58. A corporation is deemed to be at home where
it is “incorporated or has its principal place of busi­
ness.” Id. (citing Daimler AG v. Bauman, 572 U.S.__
n. 19,134 S.Ct. 746, 760-61 n.19 (2014)).
80. The Court has specific personal jurisdiction
over any defendant when that defendant “purposefully

App. 45
enters the forum’s market or establishes contacts in
the forum and affirmatively directs conduct there, and
the claims arise from that purposeful contact or con­
duct.” Viega GmbH, 130 Nev. Adv. Op. 40, 328 P.3d at
1156-57.
81. Further, in Nevada, a defendant who assists
with fraudulent transfers or other efforts to impede
satisfaction of a judgment is subject to personal juris­
diction in Nevada. See Casentini v. Ninth Judicial Dist.
Court of State In & For County of Douglas, 110 Nev.
721, 877 P.2d 535.
82. Nevada also allows the contacts of the agent
or alter ego of an entity to be attributed to the entity
itself Under Nevada law, “ [t] he contacts of an agent are
attributable to the principal in determining whether
personal jurisdiction exists.” Trump u. Eighth Judicial
Dist. Court, 109 Nev. [687] at 694,857 P.2d [740] at 745
(citing Sher v. Johnson, 911 F.2d 1357, 1362 (9th
Cir.1990)) (finding jurisdiction over Donald Trump un­
der the agency theory). “Generally, an agency relation­
ship is formed when one person has the right to control
the performance of another.” Viega GmbH, 328 P.3d at
1158 (citing Restatement (Second) of Agency § 14
(1958) (providing that an agency relationship exists
when the principal possesses the right to control the
agent’s conduct)). “The alter ego theory allows plain­
tiffs to pierce the corporate veil to impute a subsidi­
ary’s contacts to the parent company by showing that
the subsidiary and the parent are one and the same.”
Viega GmbH, 328 P.3d at 1157. “The rationale behind
this theory is that the alter ego subsidiary is the same

App. 46
entity as its parent, and thus, the jurisdictional con­
tacts of the subsidiary are also jurisdictional contacts
of the parent.” Id.
83. The evidence shows that Defendants have
sufficient minimum contacts with the State of Nevada
to subject them to personal jurisdiction in this matter.
84. Further, Kirsch is the agent of each of the
other Defendants, and they are his agents. Personal
jurisdiction is also appropriate based on an agency the­
ory as Defendants’ contacts with Nevada are at­
tributed to each other.
85. In addition, personal jurisdiction is appropri­
ate based on veil-piercing and reverse veil-piercing be­
cause Kirsch is the alter-ego of each of the other
Defendants, they are his alter-egos.
86. The evidence also shows that the Kirsch En­
terprise was created for Kirsch and Judgment Debtors
to avoid liability for Redwood’s judgments, and all De­
fendants participated in and are part of the Enterprise,
which operated in great part through Nevada entities
and use of Nevada bank accounts as well as other ac­
tivities aimed at Nevada. Defendants individually and
as part of the Enterprise have sufficient minimum con­
tacts with the State of Nevada.
87. Further, Kirsch, Judgment Debtors, Rock
Bay, and Sloane Park have also consented to Nevada’s
jurisdiction due to their engaging in substantial litiga­
tion over the course of several years in Nevada courts
on issues related to this case. See Dogra v. Liles, 129

App. 47
Nev. Adv. Op. 100, 314 P.3d 952 (2013) (stating that a
nonresident defendant can acquiesce to jurisdiction in
Nevada). The substantial litigation these Defendants
previously engaged in is substantially related to the
Judgments and the case at hand.
88. Based on the evidence and the foregoing con­
clusions, general jurisdiction is proper over Rock Bay
and Sloane Park as they are Nevada entities, and they
are also subject to specific jurisdiction based on the ev­
idence. Further, general jurisdiction or at a minimum
specific jurisdiction is proper over Kirsch, Westboume,
Vizcaya and OppsREO.
89. Defendants could reasonably anticipate be­
ing brought into a Nevada court given their purposeful
availment of Nevada to conduct and/or participate in
the Kirsch Enterprise and the efforts to avoid collec­
tion of the Judgments. Further, considering all appli­
cable factors set forth in Trump, the Court concludes
that it is reasonable to exercise personal jurisdiction
and to require Defendants to defend this matter in
Nevada. The exercise of jurisdiction in Nevada also
comports with fair play and substantial justice. De­
fendants have not provided the Court with any credi­
ble evidence or reason that litigating this case in
Nevada would be unreasonable given their contacts
with Nevada. Trump, 109 Nev. at 700, 857 P.2d at 748.
CREDITOR’S BILL
90. The evidence at trial showed that Redwood is
entitled to the remedy of a creditor’s bill.

App. 48
91. Redwood has attempted execution to satisfy
the Florida Judgments, but Judgment Debtors’ obliga­
tions to Redwood have remained unsatisfied for over
six years.
92. The purpose of a creditors’ bill is to reach the
assets of a judgment debtor that have been transferred
to a third party and have hindered satisfaction of a
judgment. See Hulley v. Chedic, 22 Nev. 127,145, 36 R
783,786 (1894) (allowing plaintiff to obtain a judgment
against a third party that received a transfer of assets
from a judgment debtor); Murtha v. Curley, 90 N.Y. 372
(1882) (cited by the Nevada Supreme Court in Hulley
v. Chedic and allowing creditor to reach assets trans­
ferred by a judgment debtor to third parties). Relief in
the form of a creditors’ bill "merely subrogates the
creditor to the place of the debtor, and garnishes the
debt due to the indebted corporation. It does not
change the character of the debt attached or gar­
nished.” Thompson v. Reno Sav. Bank, 19 Nev. 103,115,
7 P. 68, 72 (1885) (allowing judgment against debtor
and third-party that owned [sic] money to debtor).
93. Based on all of the evidence presented at
trial and the findings of fact and conclusions of law
cited herein, combined with the Evidentiary Presump­
tions to be applied under the Sanction Orders, Red­
wood is entitled to the remedy of a creditor’s bill.

App. 49
ALTER-EGO, VEIL PIERCING AND REVERSE
VEIL PIERCING
94. As the Nevada Supreme Court made clear,
“the ‘essence’ of the alter ego doctrine is to ‘do justice’
whenever it appears the protections provided by the
corporate form are being abused. LFC Marketing
Group, Inc. u. Loomis, 116 Nev. 896, 903, 8 P.3d 841,
845-46 (2000) (citing Polaris Industrial Corp., 103 Nev.
at 603,747 P.2d at 888). Further, the elements for alter
ego require only proof by a preponderance of the evi­
dence. See id. at 904, 8 P.3d at 846. The Nevada Su­
preme Court has repeatedly stated, “Where is no
litmus test for determining when the corporate fiction
should be disregarded; the result depends on the cir­
cumstances of each case.” Loomis, 116 Nev. at 904, 8
P.3d at 847 {citing Polaris v. Industrial Corp. v. Kaplan,
103 Nev. 598, 601, 747 P.2d 884, 886 (1987)) (finding
alter ego liability despite the fact that a company was
not solely owned by the individual who plaintiffs as­
serted was the company’s alter ego).
95. There are three elements for an ego claim: (1)
the business entity is influenced and governed by the
person/entity asserted to be the alter ego; (2) there is
such a unity of interest and ownership that the two are
inseparable from one another; and (3) the facts must
be such that adherence to the corporate fiction of a
separate entity would sanction a fraud or promote in­
justice. Id. at 904, 8 P.3d at 846-47. Nevada also recog­
nizes reverse veil piercing, which allows Redwood to
reach the assets of any Defendant to satisfy the debt of
a corporate insider (such as Kirsch) based on a showing

App. 50
that the entity is really the alter ego of Kirsch. Id. at
903, 8 P.3d at 846.
96. Courts use the following factors in analyzing
each of the three elements. The factors substantiating
a claim for an alter ego relationship may include: (1)
commingling of funds; (2) undercapitalization; (3) un­
authorized diversion of funds; (4) treatment of corpo­
rate assets as the individuals own; or (5) failure to
observe corporate formalities. Id. at 904, 8 P.3d at 846.
Other factors evidencing an alter ego theory of liability
include when an individual “use[s] the corporate shell
as a conduit for his individual enterprise,” Mosa v.
Wilson-Bates Furniture Co., 94 Nev. 521, 523, 583 P.2d
453, 454 (1978), and when “the formation and use of a
corporation to transfer to it the existing liability of an­
other person or entity” occurs. North Arlington Medical
Bldg., Inc. v. Sanchez Const. Co., 86 Nev. 515, 522 n. 3,
471 P.2d 240, 244 n. 3 (1970).
97. The Nevada Supreme Court does not require
direct proof of ownership for application of the alterego doctrine. In Loomis, the defendant argued that al­
ter-ego liability could not be imposed because the de­
fendant, William Lange, did not “own a single share of
LFC Marketing”, the company alleged to be William’s
alter-ego. Loomis, at 905, 8 P.3d at 847. The Nevada
Supreme Court rejected that argument, stating:
[allthough ownership of corporate shares is a
strong factor favoring unity of ownership and
interest, the absence of corporate ownership
is not automatically a controlling event. In­
stead, the ‘circumstances of each case’ and the

App. 51
interests of justice should control. Id. This is
especially true when considering the ease
with which corporations may be formed and
shares issued in names other than the con­
trolling individual.
In this case, there was evidence that William
acted as the ultimate authority for all of LFC
Marketing’s dealings, had negotiated the mar­
keting agreement with NLRC personally, and
did not distinguish his interest from the vari­
ous Lange entities. Further, there was evi­
dence that William considered himself to be
the “president and CEO” and the “primary
owner” of LFC Marketing. Additionally, there
was evidence that LFC Communications paid
LFC Marketing’s bills and that a common ac­
count was used among the LFC entities. Fi­
nally, there was testimony that William alone
negotiated a settlement agreement with
NLRC over a billing dispute and determined
which of the LFC entities received the pro­
ceeds. We conclude that this evidence is ade­
quate to support the district court’s conclusion
that there was a unity of interest and owner­
ship.
Id. The Court finds that reverse piercing will not harm
the rights of any innocent parties and thus reverse
piercing is proper. Id. at 904,8 P.3d at 846 (citing Floyd
v. I.R.S., 151 F.3d 1295,1300 (10th Cir. 1998).
98. Based on all of the evidence presented at
trial and the findings of fact and conclusions of law

App. 52
cited herein, combined with the Evidentiary Presump­
tions to be applied under the Sanction Orders, alterego, veil-piercing and reverse veil-piercing liability is
appropriate as to all Defendants. Accordingly, all De­
fendants are alter egos of Judgment Debtors and of
each other.
99. All Defendants herein are therefore liable for
all amounts owed under the Redwood and Elevenhome
Florida Judgments.
SUCCESSOR LIABILITY
100. The Court finds that successor liability
should be imposed on Defendants and that they must
be held liable for all amounts owed under the Florida
Judgments.
101. Nevada recognizes four instances where
successor liability can be imposed (1) where a trans­
feree expressly or impliedly agrees to assume such
debts; (2) where a sale is really a de facto merger; (3)
when the transferee corporation is merely a continua­
tion Of the transferring corporation; and (4) where the
transaction was fraudulently made in order to escape
liability of debts. Village Builders 96 L.P. v. U.S. Labor­
atories, Inc., 121 Nev. 261 (2005).
102. The Court finds that the Defendants are li­
able for the Redwood and Elevenhome Judgments un­
der the doctrine of successor liability because
Defendants engaged in a number of transfers and
transactions designed to avoid liability for the Florida

App. 53
Judgments. Village Builders 96 L.P. v. U.S. Laborato­
ries, Inc., 121 Nev. 261 (2005); Lamb v. Leroy Corp.,
84t5] Nev. 276, [454 P.2d 24] (1969).
103. The Court also finds that Defendants are li­
able for the Redwood and Elevenhome Judgments un­
der the doctrine of successor liability because ARE
LLC’s transfer of all assets to Addle Hill, as well as to
Defendants constituted de facto mergers. Village
Builders 96 L.P., 121 Nev. at 268. Whether a de facto
merger exists requires the Court to apply a four-factor
test, considering: (1) whether there is a continuation of
the enterprise, (2) whether there is a continuity of
shareholders, (3) whether the seller corporation ceased
its ordinary business operations, and (4) whether the
purchasing corporation assumed the sellers obliga­
tions. Id. However, every factor in the analysis is not
required to favor Redwood to result in a showing of de
facto merger for successor liability. Village Builders 96
L.P, 121 Nev. at 269-70 (stating that “no single factor
is either necessary or sufficient to establish a de facto
merger”). The Court has considered these factors and
based on the evidence presented, successor liability un­
der the de facto merger doctrine is warranted.
104. Further, the Florida judgment against Ad­
dle Hill is entitled to full faith and credit and is en­
forceable and binding in this action. Kirsch and the
Westbourne Defendants admitted at the beginning of
this case that “Addle Hill is a lynchpin [sic] between
the Judgment Debtors and Defendants.” Defendants’
Motion to Dismiss or Stay, filed August 21,2015, at 9:89. Since Addle Hill, the “lynchpin” [sic] of the Kirsch

App. 54
Enterprise, was adjudged to be a successor entity of
ARE LLC, the Westbourne Defendants likewise have
successor liability.
105. Thus, the Defendants are jointly and sever­
ally liable for the Florida Judgments under the doc­
trine of successor liability.
FRAUDULENT TRANSFER
106. While all Defendants are alter egos of and
successors in interest to the Judgment Debtors, Red­
wood also has proven it is entitled to relief under Ne­
vada’s Uniform Fraudulent Transfers Act, NRS
112.140-250 (“UFTA”).
107. For the reasons set forth in Redwood’s Clos­
ing Argument Reply Brief filed March 31, 2017, De­
fendants are not entitled to assert a statute of
limitation defense. Assuming they were entitled to as­
sert such a defense, however, Defendants did not sat­
isfy their burden of proof for such a defense.
108. All of the property described in these find­
ings of fact and conclusions of law qualifies as property
under the UFTA as property is “anything that may be
subject to ownership.” NRS 112.150(10); Sportsco En­
terprises v. Morris, 112 Nev. 625, 917 P.2d 934 (1996).
109. Moreover, where a “creditor establishes the
existence of certain indicia or badges of fraud, the bur­
den [is on] the defendant to come forward with rebuttal
evidence that a transfer was not made to defraud the
creditor.” Sportsco, 112 Nev. at 632, 917 P.2d at 938.

App. 55
Redwood has established certain indicia or badges of
fraud based on the evidence presented. Defendants
have provided no evidence regarding any lawful reason
as to why the transfers described herein were made.
110. The Court finds that Defendants and other
entities in the Kirsch Enterprise, including Addle Hill,
transferred property and/or assets within the Kirsch
Enterprise with actual intent to hinder, delay, and/or
defraud Redwood and Elevenhome, to hide or conceal
assets, and to prevent execution on assets or property
in satisfaction of the Redwood and Elevenhome Florida
Judgments in violation of the UFTA. NRS 112.180(l)(a).
See Sportsco Enterprises, 112 Nev. at 632, 917 P.2d at
938 (stating that other factors showing that actual
fraudulent transfer occurred included the closeness in
relationship between the transferor and the trans­
feree).
111. Among other things, Defendants’ intent to
hinder, delay, and/or defraud is demonstrated by trans­
fers being made to insiders, related/successor and al­
ter-ego entities; Kirsch and the other Judgment
Debtors retaining possession or control of the property
and assets after the transfers; Kirsch and the other
Judgment Debtors continuing to derive significant eco­
nomic benefit from the transferred property; transfers
being hidden and concealed; Judgment Debtors mak­
ing transfers after liabilities arose, after being sued, in
anticipation of the Florida trial and the Judgments be­
ing entered, and after the Judgments were entered;
transfers containing all or substantially all of Judg­
ment Debtors’ assets; Judgment Debtors receiving no

App. 56
consideration or consideration that was not reasonably
equivalent to the value of assets transferred; and Judg­
ment Debtors being insolvent or becoming insolvent af­
ter the transfer of assets. NRS 112.180(2); Herup v.
First Boston Financial, LLC, 123 Nev. 228, 233, 162
P.3d 870, 873-74 (2007).
112. The Court finds that the good faith defense
under NRS 112.180 is not applicable here. None of the
transferees in this case have objectively shown that
they did not know or had no reason to know of any of
the Judgment Debtors’ fraudulent purpose to delay,
hinder, or defraud the transferor’s creditors. Herup,
123 Nev. at 237, 162 P.3d at 876. On the contrary, all
Defendants were and are part of the Kirsch Enterprise,
which acted collectively and with knowledge of the
matters set forth herein.
113. Additionally, the Court finds that Defend­
ants engaged in constructive fraudulent transfer when
they transferred property and assets without receiving
a reasonably equivalent value in exchange for the
transfer or obligation, and while Judgment Debtors
were engaged or were about to engage in a business or
a transaction for which the remaining assets of Judg­
ment Debtors were unreasonably small in relation to
the business or transaction, or while Judgment Debt­
ors intended to incur, or believed or reasonably should
have believed that they would incur, debts beyond
their ability to pay as they became due. NRS
112.180(l)(b).

App. 57
114. Judgment Debtors transferred property
and assets to Defendants and other Kirsch Enterprise
entities, and Redwood’s claims arose before the trans­
fers were made. Judgment Debtors made the transfers
or incurred the obligations without receiving a reason­
ably equivalent value in exchange for the transfer or
obligations and Judgment Debtors were insolvent at
that time or became insolvent as a result of the trans­
fers or obligations. NRS 112.190; Herup, 123 Nev. at
233,162 P.3d at 873.
115. Loans that were owned by and serviced for
ARE LLC were later transferred to Addle Hill, Westbourne and other entities in the Kirsch Enterprise, in­
cluding Kirsch’s new company, Moab Ventures, LLC.
See, e.g., Tr. Exs. 69, 71-72.
116. The evidence presented, the chronology of
events and transfer of assets, and the other surround­
ing circumstances demonstrate a clear intent to trans­
fer assets to Defendants and other entities in the
Kirsch Enterprise for the improper and fraudulent
purposes of avoiding liability to Redwood and Elevenhome. Similar to the Florida Court’s finding as to Addle
Hill, the evidence here leads to the inescapable conclu­
sion that the transfers to Defendants and other enti­
ties in the Kirsch Enterprise were intentionally,
willfully and fraudulently designed to evade collection
of the Florida Judgments.
117. Based on all of the evidence presented at
trial and the findings of fact and conclusions of law
cited herein, combined with the Evidentiary

App. 58
Presumptions to be applied under the Sanction Orders,
Defendants are liable for fraudulent transfers under
the UFTA.
DECLARATORY RELIEF
118. The Court has authority to grant declara­
tory relief under NRS 30.010 to 30.160, Nevada’s Uni­
form Declaratory Judgments Act. Declaratory relief is
proper upon a showing of: (1) the existence of a justici­
able controversy, or in other words, a controversy in
which a claim of right is asserted against one who has
an interest in contesting it; (2) the controversy must be
between persons whose interests are adverse; (3) the
party seeking declaratory relief must have a legally
protectable interest; and (4) the issue involved in the
controversy must be ripe for judicial determination.
Kress v. Corey, 65 Nev. 1, 26,189 P.2d 352, 364 (1948).
119. Defendants did not address nor dispute
Redwood’s claim for declaratory relief. In fact, Defend­
ants’ Joint Brief establishes an actual controversy be­
tween the parties regarding the rights and ownership
of mortgage loans, servicing rights, funds generated
from those loans, and the other matters set forth
herein.
120. The Court finds this case appropriate for
the issuance of declaratory relief, and based on the
Florida judgment, the testimony and evidence pre­
sented, the Evidentiary Presumptions, and the de­
faults entered against ARE LLC and ARE 53, the

App. 59
Court grants declaratory relief, and issues a judgment
declaring the following:
•

The Florida Judgments entered against Judg­
ment Debtors on or about March 7, 2011 and
against Addle Hill, Inc. (“Addle Hill”) on or
about May 11,2016 in Case No. 08-65603, Cir­
cuit Court of the Eleventh Judicial Circuit,
Miami-Dade County, Florida, are entitled to
full faith and credit and are binding in this
action;

•

ARE LLC owned all mortgage loans, servicing
rights, and revenue and proceeds generated
thereby and related thereto for the Kirsch En­
terprise (the “Assets”). The Assets include, but
are not limited to:
a) property held, possessed, collected
and/or administered by any and all mortgage
servicing companies and/or by MERS (collec­
tively “Mortgage Servicers”), including, but
not limited to, Statebridge;
b) loans to third party obligors evi­
denced by mortgages, deeds of trust, assign­
ments, allonges, and modifications thereto,
(the “Mortgage Loans”) together with related
loan documentation, including business rec­
ords made and kept by the Mortgage Ser­
vicers during the administration of the
Mortgage Loans reflecting payments received,
interest accrued, protective advances made
and balances of the Mortgage Loans;
c) Real estate titled in the name of any
of the Judgment Debtors, Westbourne

App. 60
Defendants, Addle Hill, Mortgage Servicers,
MERS, or in any entity related to or on behalf
of the Kirsch Enterprise (“REO”) as a result of
the enforcement of the remedies of the lender
or its assignee under the promissory notes,
mortgages, deeds of trust, assignments, modi­
fications and allonges evidencing the Mort­
gage Loans (collectively, “Loan Documents”);
d) Servicing Agreements between any of
the entities in the Kirsch Enterprise and any
Mortgage Servicer (“Servicing Agreements”);
and
e) Money or other property that is the
proceeds of the Mortgage Loans, REO, Servic­
ing Agreements or Assets;
•

Kirsch at all times Controlled the Assets as
well as Judgment Debtors, Addle Hill, the
Westbourne Defendants, Moab Ventures, LLC
and other entities within the Kirsch Enter­
prise;

•

Kirsch divided and segmented the Assets
causing them to be transferred to Addle Hill
and other entities in the Kirsch Enterprise,
including the Westbourne Defendants named
here, and Moab Ventures, LLC;

•

Kirsch, the Judgment Debtors and the Westbourne Defendants are alter egos of each
other and of Addle Hill;

•

Kirsch, the Judgment Debtors and the Westbourne Defendants are agents of each other
and of Addle Hill;

App. 61
•

Kirsch, the Judgment Debtors, Addle Hill, and
the Westbourne Defendants engaged in the
fraudulent transfer of the Assets;

•

The Westbourne Defendants should be held li­
able for all amounts owed under the Florida
Judgments;

•

Plaintiffs are entitled to receive title to and
possession of all Assets toward satisfaction of
the amounts owed pursuant to the Florida
Judgments and this Judgment, including, but
not limited to:
a) all Assets owned by or held benefi­
cially for any of the Judgment Debtors, any of
the Westbourne Defendants, or Addle Hill, di­
rectly or indirectly;
b) all Assets owned by or held benefi­
cially for any entity related to and/or con­
trolled by Kirsch or any entity in the Kirsch
Enterprise that received the transfer of As­
sets from any of the Judgment Debtors, any of
the Westbourne Defendants, or Addle Hill, di­
rectly or indirectly;
c) all Assets serviced or held beneficially
by Statebridge or any other Mortgage Ser­
vicer or MERS for or on behalf of any of the
Judgment Debtors, any of the Westbourne De­
fendants, or Addle Hill, directly or indirectly;

•

Defendants have no legal or equitable right,
title and interest in the Assets transferred
pursuant to this Judgment and Permanent
- Injunction and may not seek the return of any
such assets.

App. 62
MORTGAGES WERE NOT HELD IN TRUST OR
AS “TRUSTEE”
121. Throughout their Joint Brief, Defendants
contended that ARE LLC did not own assets directly
but only in the capacity as a trustee. The Court rejects
this argument for a number of reasons, including:
•

Defendants did not introduce or attempt to in­
troduce any “trust” documents or agreements
into evidence. They also did not identify any
such “trusts” in pretrial disclosures;

•

Defendants introduced no evidence of who the
alleged settlor or beneficiaries of the supposed
trusts were;

•

ARE LLC, as “trustee”, did not enter any ser­
vicing agreements for the servicing of any
mortgage loans. On the contrary, in a servic­
ing agreement effective through 2011, ARE
LLC represented and warranted that it owned
the mortgage loans directly, not in a “trustee”
capacity. Westbourne then represented and
warranted that it owned the mortgage loans,
again, not in a “trustee” capacity;

•

Defendants presented no evidence of a bank
account in the name of a trust or for ARE LLC
as trustee;

•

The argument that payments to “ARE” and
“American Residential Equities” were really
“trust” funds is contradicted by the fact that
Kirsch and ARE LLC deposited those funds
into the bank account of Rock Bay, comingled
such funds with all of the other Westbourne

App. 63
Defendants in Rock Bay’s account, and Kirsch
withdrew hundreds of thousands in cash and
ATM withdrawals from Rock Bay’s account;
•

In the Florida action against Addle Hill where
the court found that ARE LLC was the alter
ego of, and engaged in fraudulent transfers
with, Addle Hill, William Hirschkowitz did
not testify that ARE LLC only acted as “trus­
tee”, and Kirsch and ARE LLC did not argue
in that case that ARE LLC only acted as “trus­
tee”;

•

If ARE LLC only owned and managed assets
as “trustee”, Kirsch, ARE LLC, or any of the
Westbourne Defendants could have filed a mo­
tion in this case at the beginning or sometime
sooner in this litigation instead of waiting to
raise this argument after the close of evidence
at trial;

•

If Defendants’ “trustee” argument were valid,
they should have sat for depositions, produced
documents and participated in discovery in­
stead of engaging in the Litigation Miscon­
duct that led to the three Sanction Orders;

•

To the extent any trusts exist, the evidence
and Evidentiary Presumptions support the
conclusion that such trusts are merely exten­
sions of and part of the Kirsch Enterprise for
transferring and concealing assets and for the
improper and fraudulent purpose of avoiding
liability to Redwood and evading collection of
the Florida Judgments.

App. 64
122. The Court likewise finds that the Michigan
Order the Defendants attached to their closing argu­
ment brief is not a defense to liability in this case be­
cause:
•

If the Michigan order had any preclusive ef­
fect or absolved Defendants of any liability
here, they would have filed dispositive mo­
tions in this case at the beginning. Yet, they
filed no motions and raised no arguments
based on this order until their closing argu­
ment brief filed nearly one month after the
close of evidence.

•

The Michigan order is dated in 2012. The Flor­
ida court entered judgment in 2015 that Addle
Hill fraudulently transferred assets, was an
alter ego, and a successor entity of ARE LLC.
But Kirsch and ARE LLC did not raise the
Michigan order in the Florida action though
they had ample opportunity to do so;

•

Defendants’ argument is inconsistent with
and contradicts what the Florida court has
done, which involved no rulings that ARE
LLC acted or owned any assets as “trustee”
and which did not include a finding based on
the Michigan order (which was never raised
in that case).

INJUNCTIVE RELIEF
123. The Court is vested with the power to issue
injunctive relief pursuant to NRCP 65 and NRS
33.010. Indeed, NRS 33.010(3) provides for injunctive

App. 65
relief when a party acts in “violation of the plaintiff’s
rights respecting the subject of the action, and tending
to render the judgment ineffectual.” NRS 33.010(3).
The Nevada Supreme Court has long held that “if the
injury is likely to be irreparable, or if the defendant be
insolvent, equity will always interpose its powers to
protect a person from a threatened injury.” Champion
v. Sessions, 1 Nev. 478,483 (1865) (emphasis added).
124. Injunctive relief may be of either a manda­
tory or prohibitive nature, and is properly issued
where “it is essential to preserve a business or property
interest” Guion v. Terra Marketing of Nevada, Inc., 90
Nev. [237] at 240, 523 P.2d. 420 [847]; City of Reno v.
Matley, 79 Nev. 49, 60, 378 P.2d 256 (1963).
125. Further, under Nevada’s UFTA, NRS
112.210(l)(c), this Court has authority to issue an in­
junction “against further disposition by the debtor or a
transferee, or both, of the asset transferred or of other
property”.
126. The Court finds that a permanent injunc­
tion, both mandatory and prohibitive, should be en­
tered against Defendants and Statebridge, and each of
them, as well as their officers, agents, servants, em­
ployees, and attorneys, and those persons or entities in
concert or participation with them who receive actual
notice of this Judgment and Permanent Injunction by
personal service, email, facsimile transmission, US
Mail, or otherwise, whether acting directly or indi­
rectly, including through any third-party,

App. 66
•

Enjoining and restraining Defendants and/or
Statebridge from concealing, transferring, dis­
posing of, or encumbering any Assets;

•

Enjoining and restraining Defendants from
concealing, transferring, disposing of, or en­
cumbering any property of Defendants within
their possession or control;

•

Enjoining and restraining Defendants from
directing, aiding and abetting or participating
in the concealment, transfer, disposition or en­
cumbering of any Assets or property of De­
fendants;

•

Ordering, directing and requiring the transfer
to Plaintiffs of title to and possession of all As-'
sets, including, but not limited to:
a) all Assets owned by or held
beneficially for any of the Judgment Debtors,
any of the Westbourne Defendants, or Addle
Hill, directly or indirectly;
b) all Assets owned by or held
beneficially for any entity related to and/or
controlled by Kirsch or any entity in the
Kirsch Enterprise that received the transfer
of Assets from any of the Judgment Debtors,
any of the Westbourne Defendants, or Addle
Hill, directly or indirectly;
c) all Assets serviced or held ben­
eficially by Statebridge or any other Mortgage
Servicers or by MERS for or on behalf of any
of the Judgment Debtors, any of the West­
bourne Defendants, or Addle Hill, directly or
indirectly;

App. 67
d) All loan files, notes, mortgages
allonges and other loan documents, in what­
ever form they exist, associated with mort­
gage loans owned by, serviced by, or in the
possession of Defendants, Statebridge, any
other Mortgage Servicer or MERS;
•

Ordering, directing and requiring Defendants
and/or Statebridge to fully cooperate regard­
ing any matters associated with the transfer
of Assets pursuant to this Judgment and Per­
manent Injunction;

•

Enjoining and restraining Defendants and/or
Statebridge from destroying, erasing, conceal­
ing, altering, transferring or otherwise dispos­
ing of, in any manner, directly or indirectly,
any documents or records that relate to the
Assets.

127. Defendants’ conduct as set forth herein was
fraudulent, intentional, willful, flagrant, abusive, in
bad faith, and undertaken deliberately with intent to
impede collection of the Florida Judgments and to con­
ceal assets. Defendants at all times had full knowledge
of the purpose and consequences of their actions and of
the actions of the Enterprise.
128. Based on information from Plaintiffs, judg­
ment should be entered in favor of Redwood to
have and recover judgment from the Westbourne De­
fendants, jointly and severally, in the amount of
$13,731,343.11 (thirteen million seven-hundred thirtyone thousand three-hundred forty-three dollars and
eleven cents), which constitutes the principal and

App. 68
interest owed through May 31,2017 under the Florida
Judgment minus credit for amounts collected.
129. Based on information from Plaintiffs, judg­
ment should be entered in favor of Elevenhome to have
and recover judgment from the Westbourne Defend­
ants, jointly and severally, in the amount of
$8,586,945.82 (eight million five-hundred eighty-six
thousand nine hundred forty-five dollars and eightytwo cents), which constitutes the principal and interest
owed through May 31, 2017 under the Florida Judg­
ment minus credit for amounts collected.
130. All judgment amounts shall continue to ac­
crue interest at the applicable legal rate provided un­
der Nevada law until paid in full.
131. If any conclusions of law are properly find­
ings of fact, they shall be treated as if appropriately
identified and designated.
Dated this 23rd day of June. 2017.
/s/ Mark Denton
DISTRICT COURT JUDGE
Submitted by:
JOLLEY URGA WOODBURY & LITTLE
Isl L. Christopher Rose
L. Christopher Rose, Esq., #7500
330 S. Rampart Boulevard, Suite 380
Las Vegas, Nevada 89145

App. 69
LAWRENCE A. KELLOGG, ESQ.
Admitted Pro Hac Vice
LEVINE KELLOGG LEHMAN SCHNEIDER
& GROSSMAN, LLP
201 S. Biscayne Boulevard, 22nd Floor
Miami, Florida 33131
Attorneys for Plaintiffs Redwood Recovery Services,
LLC and Elevenhome Limited

App. 70
JUDG
L. CHRISTOPHER ROSE, ESQ.
Nevada Bar No. 7500
lcr@juww.com
JOLLEY URGA WOODBURY & LITTLE
330 S. Rampart Boulevard, Suite 380
Las Vegas, Nevada 89145
(702) 699-7500 Telephone
(702) 699-7555 Facsimile
LAWRENCE A. KELLOGG, ESQ.
[Admitted Pro Hac Vice]
lak@lklsg.com
LEVINE KELLOGG LEHMAN SCHNEIDER
& GROSSMAN, LLP
201 S. Biscayne Boulevard, 22nd Floor
Miami, Florida 33131
Attorneys for Plaintiffs Redwood Recovery Services, LLC
and Elevenhome Limited
DISTRICT COURT
CLARK COUNTY, NEVADA
REDWOOD RECOVERY
SERVICES, LLC, and
ELEVENHOME LIMITED,
Plaintiffs,
v.
JEFFREY KIRSCH; AMERICAN
RESIDENTIAL EQUITIES, LLC;
AMERICAN RESIDENTIAL
EQUITIES LIII, LLC;
WESTBOURNE CAPITAL, LLC;
ROCK BAY, LLC; SLOANE

Case No.
A-15-718683-B
Dept No. XIII
JUDGMENT and
PERMANENT
INJUNCTION
(Filed Jun. 26,2017)

App. 71
PARK, LLC, VIZCAYA INVEST­
MENTS, LLC; OPPSREO, LLC;
STATEBRIDGE COMPANY,
LLC; DOES 1-10; and ROE
ENTITIES 11-20,
Defendants,
This matter came on regularly for a bench trial
beginning January 25, 2017 and continuing until its
completion. Plaintiffs Redwood Recovery Services,
LLC (“Redwood”) and Elevenhome Limited (“Elevenhome”) (collectively referred to as “Plaintiffs”) were
represented by their attorneys, L. Christopher Rose,
Esq. of Jolley Urga Woodbury & Little, and Lawrence
A. Kellogg, Esq. of Levine Kellogg Lehman Schneider
& Grossman, LLP. Defendant Jeffrey Kirsch (“Kirsch”)
represented himself in proper person. Defendants
American Residential Equities, LLC (“ARE LLC”) and
American Residential Equities LIII (“ARE 53”) were
unrepresented and did not appear at trial, the Court
having previously stricken their answers and entered
default them (Kirsch, ARE LLC and ARE 53 are col­
lective [sic] the “Judgment Debtors”). Defendants
Westbourne Capital, LLC (“Westbourne”), Rock Bay,
LLC (“Rock Bay”), Sloane Park, LLC (“Sloane Park”),
Vizcaya Investments, LLC (“Vizcaya”), and OppsREO,
LLC (“OppsREO”) (collectively, the “Westbourne De­
fendants”) were represented by their attorney. Mat­
thew L. Johnson, Esq. of Johnson & Gubler. Judgment
Debtors and the Westbourne Defendants are collec­
tively referred to as “Defendants”, the “Enterprise” or
the “Kirsch Enterprise” unless otherwise noted.

App. 72
Defendant Statebridge Company, LLC (“Statebridge”)
was represented by its attorney, Gregg Hubley of
Brooks Hubley.
The Court having entered its Findings of Fact and
Conclusions of Law, and there being no just reason for
delay, and good cause appearing, intending to enter
judgment, the Court orders, adjudges and decrees as
follows:
MONETARY JUDGMENT
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED that Plaintiff Redwood have and recover
judgment from the Westbourne Defendants, jointly
and severally, in the amount of $13,731,343.11 (thir­
teen million seven-hundred thirty-one thousand threehundred forty-three dollars and eleven cents), which
constitutes the principal and interest owed through
May 31, 2017, under the Florida Judgment minus
credit for amounts collected, for which sum let execu­
tion issue;
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that Plaintiff Elevenhome have and re­
cover judgment from the Westbourne Defendants,
jointly and severally, in the amount of $8,586,945.82
(eight million five-hundred eighty-six thousand nine
hundred forty-five dollars and eighty-two cents), which
constitutes the principal and interest owed through
May 31, 2017 under the Florida Judgment minus
credit for amounts collected, for which sum let execu­
tion issue;

App. 73
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that Plaintiffs are awarded costs against
Defendants, jointly and severally, in the amount of
$23,641.92;
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that all judgment amounts shall continue
to accrue interest at the applicable legal rate provided
under Nevada law from the date of the filing of this
Judgment until all amounts are paid in full;
DECLARATORY JUDGMENT
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that the Court grants declaratory relief,
and issues a judgment declaring the following:
•

The Florida Judgments entered against Judgment
Debtors on or about March 7, 2011 and against
Addle Hill, Inc. (“Addle Hill”) on or about May 11,
2016 in Case No. 08-65603, Circuit Court of the
Eleventh Judicial Circuit, Miami-Dade County,
Florida, are entitled to full faith and credit and are
binding in this action;

•

ARE LLC owned all mortgage loans, servicing
rights, and revenue and proceeds generated
thereby and related thereto for the Kirsch Enter­
prise (the “Assets”). The Assets include, but are not
limited to:
a) property held, possessed, collected and/or
administered by any and all mortgage servicing
companies and/or by the Mortgage Electronic Reg­
istration System (“MERS”) (collectively “Mortgage

App. 74
Servicers”), including,
Statebridge;

but

not

limited

to,

b) loans to third party obligors evidenced by
mortgages, deeds of trust, assignments, allonges,
and modifications thereto, (the “Mortgage Loans”)
together with related loan documentation, includ­
ing business records made and kept by the Mort­
gage Servicers during the administration of the
Mortgage Loans reflecting payments received,
interest accrued, protective advances made and
balances of the Mortgage Loans;
c) Real estate titled in the name of any of
the Judgment Debtors, Westbourne Defendants,
Addle Hill, Mortgage Servicers, MERS, or in any
entity related to or on behalf of the Kirsch Enter­
prise (“REO”) as a result of the enforcement of
the remedies of the lender or its assignee under
the promissory notes, mortgages, deeds of trust,
assignments, modifications and allonges evidenc­
ing the Mortgage Loans (collectively, “Loan Docu­
ments”);
d) Servicing Agreements between any of the
entities in the Kirsch Enterprise and any Mort­
gage Servicer (“Servicing Agreements”); and
e) Money or other property that is the pro­
ceeds of the Mortgage Loans, REO, Servicing
Agreements or Assets;
Kirsch at all times controlled the Assets as well
as Judgment Debtors, Addle Hill, the Westbourne
Defendants, Moab Ventures, LLC and other enti­
ties within the Kirsch Enterprise;

App. 75
•

Kirsch divided and segmented the Assets causing
them to be transferred to Addle Hill and other
entities in the Kirsch Enterprise, including the
Westbourne Defendants named here, and Moab
Ventures, LLC;

•

Kirsch, the Judgment Debtors and the Westbourne Defendants are alter egos of each other
and of Addle Hill;

•

Kirsch, the Judgment Debtors and the Westbourne Defendants are agents of each other and of
Addle Hill;

•

Kirsch, the Judgment Debtors, Addle Hill, and the
Westbourne Defendants engaged in the fraudu­
lent transfer of the Assets;

•

The Westbourne Defendants should be held liable
for all amounts owed under the Florida Judg­
ments;

•

Plaintiffs are entitled to receive title to and pos­
session of all Assets toward satisfaction of the
amounts owed pursuant to the Florida Judgments
and this Judgment, including, but not limited to:
a) all Assets owned by or held beneficially
for any of the Judgment Debtors, any of the West­
bourne Defendants, or Addle Hill, directly or indi­
rectly;
b) all Assets owned by or held beneficially
for any entity related to and/or controlled by
Kirsch or any entity in the Kirsch Enterprise that
received the transfer of Assets from any of the
Judgment Debtors, any of the Westbourne Defen­
dants, or Addle Hill, directly or indirectly;

App. 76
c) all Assets serviced or held beneficially by
Statebridge or any other Mortgage Servicer or
MERS for or on behalf of any of the Judgment
Debtors, any of the Westbourne Defendants, or
Addle Hill, directly or indirectly;
•

Defendants have no legal or equitable right, title
and interest in the Assets transferred pursuant
to this Judgment and Permanent Injunction and
may not seek the return of any such assets;

PERMANENT INJUNCTION
IT IS FURTHER ORDERED, ADJUDGED AND
DEGREED that a permanent injunction, both manda­
tory and prohibitive, be, and hereby is, entered against
Defendants and Statebridge, and each of them, as well
as their officers, agents, servants, employees, and at­
torneys, and those persons or entities in concert or par­
ticipation with them who receive actual notice of this
Judgment and Permanent Injunction by personal ser­
vice, email, facsimile transmission, US Mail, or other­
wise, whether acting directly or indirectly, including
through any third-party,
•

Enjoining and restraining Defendants and/or
Statebridge from concealing, transferring, dispos­
ing of, or encumbering any Assets;

•

Enjoining and restraining Defendants from con­
cealing, transferring, disposing of, or encumbering
any property of Defendants within their posses­
sion or control;

App. 77
•

Enjoining and restraining Defendants from direct­
ing, aiding and abetting or participating in the
concealment, transfer, disposition or encumbering
of any Assets or property of Defendants;

•

Ordering, directing and requiring the transfer to
Plaintiffs of title to and possession of all Assets,
including, but not limited to:
a) all Assets owned by or held beneficially
for any of the Judgment Debtors, any of the Westbourne Defendants, or Addle Hill, directly or indi­
rectly;
b) all Assets owned by or held beneficially
for any entity related to and/or controlled by
Kirsch or any entity in the Kirsch Enterprise that
received the transfer of Assets from any of the
Judgment Debtors, any of the Westbourne Defen­
dants, or Addle Hill, directly or indirectly;
c) all Assets serviced or held beneficially by
Statebridge or any other Mortgage Servicers or
by MERS for or on behalf of any of the Judgment
Debtors, any of the Westbourne Defendants, or
Addle Hill, directly or indirectly;
d) All loan files, notes, mortgages allonges
and other loan documents, in whatever form they
exist, associated with mortgage loans owned by,
serviced by, or in the possession of Defendants,
Statebridge, any other Mortgage Servicer or
MERS.

•

Ordering, directing and requiring Defendants
and/or Statebridge to fully cooperate regarding
any matters associated with the transfer of Assets

(

App. 78
pursuant to this Judgment and Permanent In­
junction;
•

Enjoining and restraining Defendants and/or
Statebridge from destroying, erasing, concealing,
altering, transferring or otherwise disposing of, in
any manner, directly or indirectly, any documents
or records that relate to the Assets.
DATED this 23rd day of

June

2017.

/s/ Mark Denton
DISTRICT COURT JUDGE
Submitted by:
JOLLEY URGA WOODBURY & LITTLE
Isl L. Christopher Rose
L. Christopher Rose, Esq., #7500
330 S. Rampart Boulevard, Suite 380
Las Vegas, Nevada 89145
LAWRENCE A. KELLOGG, ESQ.
Admitted Pro Hac Vice
LEVINE KELLOGG LEHMAN SCHNEIDER
& GROSSMAN, LLP
201 S. Biscayne Boulevard, 22nd Floor
Miami, Florida 33131
Attorneys for Plaintiffs Redwood Recovery Services, LLC
and Elevenhome Limited

\
\

